Supreme Court, U.S.
FILED

-2H51

JUL 2 6 2021

No.

OFFICE OF THE CLERK

In t:Jje

Supreme Court of tfje XtwteS States
♦

B. BROWN
Petitioner
v.
POLICE CHIEF B. JOSEPH FRIEL,
VALLEY TOWNSHIP BOARD OF SUPERVIORS, ET AL
Respondent
- ♦_

On Writ Of Certiorari To The
United States Court Of Appeals
For The Third Circuit

PETITION FOR A WRIT OF CERTIORARI
B Brown, Unrepresented
P.O. Box 266
Atglen, PA 19310

RECEIVED
JUL 3 0 2021

QUESTIONS PRESENTED
IT IS BELIEVED that: A Permanently Disabled Medically Vulnerable
Patient’s RIGHT to: (1) REPORT Patient ABUSE: Elder ABUSE to an abuser’s
Govt Medical Center employer; (2) Report Domestic Violence to Law Enforcement
;and to (3) REPORT Child Abuse,.Firearm Violence, Stalking and attempts on
victim’s life; (4) PETITION the State for Protection From ABUSE (5) Alert the
abuser’s employer to credible threats of workplace violence made by the abuser (6)
Offer Moral Support and Communicate with her abuser’s Other Abuse Victims . . .
-ARE ALL non-criminal ACTIVITIES that are PROTECTED by THE
US CONSTITUTION—even if the exercise of the Victim's rights causes
annoyance and distress for her abuser.
1 Pennsylvania Criminal Statute 18 PA Code $2709: provides,-a person can be
Criminally Prosecuted for criminal harassment for any unwanted action toward
another person done repeatedly, with a Clear Intent to annoy, alarm, or frighten.
However, f (e) of the Statute presumably Erases PROBABLE CAUSE—
because it Expressly EXCEPTS Constitutionally Protected, Activity and States :
“This section shall NOT apply to Constitutionally Protected Activity.”
2. PA Act 70: Adult Protective Services Act was enacted to Provide Protection for
Vulnerable Adults who are unable to protect themselves, and are at risk of abuse
3. Per 23 PA Code § 6107 (Protection from Abuse Act): The court may ORDER an
ABUSER to RELINQUISH FIREARMS to local law enforcement within 24 hours as
part of a temporary Protection From Abuse order if the petition demonstrates (1)
abuse involving a firearm OR (2) an immediate and present danger of abuse. Failure
to Relinquish firearms may subject the abuser to penalties under 18USC 922(g).
4. ***However, Neither 23 PA Code nor Court Restraining Orders or VAWA
state that a PROTECTED PARTY (abuse victim) who Files a Petition for Protection
can be held to violate the Court Order or be arrested or Prosecuted for
allegedly violating the Restraining Order, OR Prosecuted for REFUSING the
abuser’s and Police Demand to WITHDRAW the Protection from Abuse Petition.

THEREFORE 2 QUESTIONS ASKED ARE:
1. Will a Municipal Chief Law Enforcement Officer’s pretext of PROBABLE CAUSE
for RETALIATORY PROSECUTION of ABUSE VICTIMS automatically DEFEAT
Plaintiffs constitutional claims:
Whenever a Police Chief, acting in the role of Prosecutor DECLARES
(absent proof of criminal intent) that:
•

Domestic Abuse VICTIMS who MAIL a copy of her COURT
PROTECTION ORDER to her abuser ‘Violates her own Protection From
Abuse Order” -

Even though NEITHER the Protection From Abuse Statute NOR the
Court Orders RESTRAIN the netitionins ABUSE VICTIM
Whenever a Police Chief in the role of Prosecutor DECLARES (absent proof
of criminal intent) that:
•

Patient Abuse VICTIMS criminally harass their violent ABUSERS—when
the VICTIM reports PATIENT ABUSE to their Treating Government Medical
Center (abuser’s employer) and contact the ABUSER’S previous medical center
assault victim . . . thereby causing the abuser distress and annoyance
Even though the specific state criminal statute Expressly EXCEPTS
Constitutional Protected Activity from its application

2. IS IT PROCEDURAL (DUE PROCESS) ERROR TO GRANT
DEFENDANT’S RULE 56 SUMMARY JUDGMENT MOTION
When The Court COPIED and PASTED into the Court’s Dispositive
Judgment “Opinion”, Defendant’s Summary Judgment Motion Briefs nearly
WORD-FOR-WORD (to include Defendant’s Bates Document Number System) -giving
undue weight to Defense Counsel’s finding of fact, conclusions of law and reasoning hence failing to conduct its OWN INDEPENDENT Balanced, Measured, Researched
and Reasoned analysis; or form it’s own Fully Informed Opinion. ... and
•

Absent Supporting Evidence from Defendant or in the Case File

•

To the Complete EXCLUSION of Plaintiffs (NON-MOVING Party) Countermotion and Opposing Response

• Without CONSIDERING EVIDENCE in the case file and in Plaintiffs Brief
and Exhibits that Counter Defendant’s claims, BUT Support ALL of Plaintiffs
Claims of Malicious Prosecution, Abuse of Process and State Created Danger;

II

PARTIES TO THE PROCEEDING

Petitioner,
B Brown who was the Plaintiff and Appellant

Respondent
Valley Township (Former) Police Chief B. Joseph Friel
Valley Township Board of Advisors
Valley Township Police Bureau
Who were the Defendants and Appellees

Ill

TABLE OF CONTENTS

QUESTIONS PRESENTED

1

LIST OF PARTIES

11

TABLE OF CONTENTS

iii

TABLE OF AUTHORITIES

V

PETITION FOR WRIT OF CERTIORARI

1

INTRODUCTION

1

1. The Police Chief, himself has a Criminal Domestic Violence and
Felony Burglary Record and acknowledged that he identifies with
Other Abusers .......................................................................................

1

2. The Police Chief asserted that "He Makes His Own Laws"

1

3. The Police Chief declared that "He Will Be The Prosecutor in the
Summary Criminal Hearing and Will Not Be allowing Petitioner To Speak In
her Own Defense" ...................................................................................

1

4. The Police Chief acknowledged in writing that he KNEW that the
ABUSER was “Putting on a “Fake Front” and “Pretending to Be A
Victim ........................................................................................................

1

5. Permitting prosecution of ABUSE VICTIMS absent proof of
Criminal Intent or Probable Cause not only intimidates the victim,
but also chills the victim’s First amendment rights to report abuse
and to petition the state courts for protection from abuse.................

1

6. Neither This Court Nor Any Of The Circuits Have Visited The
Critical Intersection Of Important Federal Questions: under
42 USC §§ 1983, 1985; 18 USC 922(g) and in the context of
Constitutional Rights of Abuse Victims to Petition for
Protection-- against the backdrop of long established state
Protection From Abuse Laws and Federal Violence Asainst Women
Act (VAWA)

2

OPINIONS BELOW

5

JURISDICTION

5

CONSTITUTIONAL PROVISIONS INVOLVED

5

STATUTUTORY PROVISIONS INVOLVED

6

STATEMENT

8

A. Factual Background

8

1. The Abuser’s gun violence and stalking (and police apathy and
complicity) became so stressful in April 2014, that Petitioner WENT
INTO HEART FAILURE and was HOSPITALIZED ......................

9

2.. Police Chief Misconduct And State-Created Danger

9

3. The ADA exclaimed on October 6, 2014, “These People Are
Terrorizing You”
•but DID NOTHING.....................................

12

4. The Police Chief filed 2 Retaliatory Criminal Charges Against
Petitioner In Retaliation On Behalf Of His Fellow Abuser alleging
that she was harassing her ABUSER....................................................

13

5. Not only did the Police Bureau and Police Chief have an
established practice of Retaliating against Victims who Filed
Protection From Abuse Petitions against their Abusers, but
ALSO the Police Bureau had an apparent established practice of
ethnically profiling individuals who reside outside of the Township
to fulfill a monthly arrest quota ..........................................................

16

6. Police Bureau’s signed Property Log indicates (in Police Chiefs
handwritten notes) that the abuser/defendant relinquished an
EMPTY 22 caliber handgun box ..........................................................

16

B. Procedural Background

18

1. District Court Proceedings

18

2. Third Circuit Panel Opinion

25

REASONS FOR GRANTING THE PETITION

30

I. The Lower Courts Decided An Important Federal Question That
Has Not Been, But Should Be, Settled By This Court

30

II. The Lower Courts Decided Important Federal Questions In A
Way That Conflicts With Relevant Decisions Of This Court .........

32

III. The Appeals Court Sanctioned Lower Court Departures From
The Accepted And Usual Course Of Judicial Proceedings, And Calls
For Exercise Of This Court's Supervisory Power .................................

33

CONCLUSION

36

APPENDICES
Third Circuit Denial of Rehearing

A

Third Circuit Opinion

A

District Court Opinion and Final Orders

B

VI

TABLE OF AUTHORITIESS

STATUTES, LAWS
42 USC 1983; 1985
18 Pa CS 2709 (e)
Violence Against Women Act (VAWA)
18 USC 922(g)
US Constitution: lsl, 4lh, 6th, 14,h Amendments
PA Protection From Abuse Act 23 PA SC§ 6101, § 6102; §6105; §6113
PA Act 70: Adult Protective Services Act
18 Pa CS § 2711
234 PA Code : Rules 402, 405, 406, 407, 410, 411, 430
Rule 1002

US SUPREME COURT CASES
Lozman v City of Riviera Beach (2018)
Mount Healthy City School District v Doyle (1911)
Tolan v Cotton (2014)

CIRCUIT CASES
Albright v Oliver (3,d Cir. 1994)
Anderson v Liberty Lobby Inc (3d Cir 1984)
Bright v. Westmoreland County (3d Cir. 2006),
Estate ofLagano v Beren County Prosecutor’s Office (3rd Circuit 2014)
Halsey v Pfeiffer et al, (3rd Circuit 2014)
Harvey v. Plains Twp. Police (3d Cir. 2011)
Lomando v. United States (3d Cir. 2011)
Michelle Owen Black v Montgomery County et al
Rivas v. City ofPassaic (3d Cir. 2004)
Vargas v City ofPhiladelphia (3d Cir. 2015

(Aug 30, 2016)

1

-\r

PETITION FOR WRIT OF CERTIORARI

Petitioner Blanche Brown respectfully petitions for a Writ of Certiorari to review
the judgment of the United States Court of Appeals for the Third Circuit

INTRODUCTION
Permitting prosecution of ABUSE VICTIMS absent proof of Criminal Intent or
Probable Cause not only intimidates the victim, but also chills the victim’s First
amendment rights to report abuse and to petition the state courts for protection
from abuse
In this matter The Police Chief, who himself has a Criminal Domestic
Violence and Felony Burglary Record, identifies with Domestic Abusers and
others who abuse women, children, the infirmed and other vulnerable populations
as he stated that he’d known the abuser for 27 years, is aware of his mental health
issues and long history of violence against women, children and disabled veterans.
The Police Chief ADVISED the ABUSER to file a criminal complaint
against the VICTIM unless she WITHDRAWS her Petition for PROTECTION
FROM ABUSE. And then he accompanied the ABUSER to the Magisterial
District Court to file the Criminal Charges because the ABUSE VICTIM Refused
to withdraw the Petition for Protection. When the Victim inquired about a
summons she’d received and the Criminal Statutes under which she was charged.
In the Police Chiefs own words he told Plaintiff/Petitioner:

f

2

“J Make MY Own Laws”, and “I won't be making the Citations available to
you ” and “Fm Going to Be The Prosecutor at this criminal hearing and Ym
not going to let you speak in your own defense”
He ALSO acknowledged in writing that he KNEW that the ABUSER was
“Putting on a “Fake Front” and “Pretending to Be A Victim” Yet he and the
county courts were amused and indulged the abuser at the REAL victim’s expense.
Defendant failed to send out citations and summons. Instead he and MDJ held a
hearing in Petitioner’s absence and the “summons” became an Arrest Warrant.
NEITHER THIS COURT NOR ANY OF THE CIRCUITS HAVE VISITED
THE CRITICAL INTERSECTION OF IMPORTANT FEDERAL QUESTIONS:
under 42 USC §§ 1983, 1985; 18 USC 922(g) and in the context of Constitutional
Rights of Abuse Victims to Petition for Protection-- against the backdrop of
long established state Protection From Abuse Laws and Federal Violence Against
Women Act (VAWA)>:
. . . All in CONTRAST with the law enforcement practice of intentional distortion
and mis-use of criminal statutes for Retaliatory Prosecution of the vulnerable
ABUSE VICTIMS --and other actions giving rise to State Created Danger and
punctuated by persistent Judicial Sanctioning at every level through Apathy.
1. Lack of ludicial IMPARTIALITY and Judicial Complicity in Relation to eliminating the
requirement for Defendant Law Enforcement Bureaus and Chief Law Enforcement Officers
to PROVE PROBABLE CAUSE to Counter the evidence in Civil Claims (under 42 USC

{

3

1983) of RETALIATORY PROSECUTION of ABUSE VICTIMS (Chilling Victim Constitutional
Rights) —when ABUSE VICTIMS:
•

Report and Seek Protection From Patient Abuse and Domestic Violence
and Gun Violence

•

Refuse to Withdraw their Petition for Protection From Abuse despite
intimidation, threats, attempts at coercion and demands from her abuser
and the abuser's allied Municipal Chief Law Enforcement officer:

2. Under What Circumstances Does (or does not) unproven Probable Cause
DEFEAT Retaliatory Prosecution and State-Created Danger Claims made by
VICTIMS of Patient Abuse and. Domestic Violence, and Violence Against
Women in the absence of Civil or Criminal Statutory Provisions that Require
or Permit Prosecution of Victims of Abuse?
3. It is not uncommon for District Courts to Countermand standards set out in the
FRCP 56 (summary judgment) by disregarding the Rule’s requirement to weigh
and consider evidence submitted by the Non-moving party.
Nor is it news that a small minority of Circuits frown on Court Practices of
Copying, Pasting and substituting the narrative of a party’s summary judgment
motion -for the Court’s own reasoned organic analysis and informed opinion—to the
exclusion of evidence submitted by the non-moving party.
However, these important procedural errors are amplified in context of the
unanswered questions about Probable Cause for Criminal Prosecution
vulnerable and disabled victims of Patient Abuse; Elder Abuse; Domestic Abuse and
Violence Against Women

4
In this Matter, the Police Chief stated that he is aware of the Abuser’s long
history of violence—as he charged him 10 years earlier for choking a woman and
counseled him in 2012 in a workplace violence matter. The Police Chief advised the
abuser to seek anger management and helped him work through recent (in his
words, “just 2 months ago”) an assault matter against a nurse.
Moreover, The Police Chief ALSO stated that he identifies with the Abuser’s
Anti-Jew, Anti-Hispanic, Anti-Veteran and Anti-women sentiments that (“they act
like they’re entitled!’) and AGREED with the Abuser’s Declarations (“These People
Bring Out The Violence In Me)
More Importantly In this matter, the municipal law enforcement bureau and its
Chief Law Enforcement officer did not merely misinterpret or misapply a state
criminal statute. Rather, Defendant established a locally accepted practice in which
they knowingly truncated, countermanded and undermined the state criminal
statute 18 Pa §2709; and distorted/manufactured non-existent provisions of the
State Protection From Abuse Statute for illegitimate, malicious and
unconstitutional purposes-- which the Magisterial District justice adopted for his
own political campaign- and while the Township Board of Supervisors looked on
and acquiesced.
Specifically, through the Police Chiefs reckless, unlawful and unconstitutional
actions against PlaintifPPetitioner—and his overt support (emboldenment,
encouragement and endorsement) of the ABUSER, he placed a target on the
ABUSE VICTIM, by refusing to CONFISCATE the ABUSER’S FIREAMS per Court

5
Order and then declaring OPEN HUNTING SEASON on this abuse victim to
punish her and to PREVENT her from going to Court to Testify against his fellow
X

abuser.
The Police Chiefs protracted deliberate and malicious conduct placed
j ■■

Plaintiff/Petitioner in far greater danger than before she sought Police Help and
Intervention—giving the abuser PERMISSION to make repeated attempts on
Petitioners life—hence establishing a STATE-CREATED DANGER.
OPINIONS AND ORDERS BELOW
United States Court of Appeals for the Third Circuit on January 28, 2021
entered its judgment and opinion affirming the District Court’s Granting of
Defendant’s Summary Judgment Motion. A copy of that Opinion is Attached as
Appendix A.
March 2, 2021 The 3rd Circuit Panel Denied Plaintiffs Request for Rehearing En
Banc (electronic filing Rc’d March 3, 2021). That Notice is Attached also in
Appendix A.
The District Court’s August 27, 2019 Final Order and Opinion Granting
Defendant’s Summary Judgment Motion is Attached as Appendix B. The District
Court Denied Plaintiffs Request For Reconsideration on April 10, 2020 The Order is
attached also as Appendix B.
JURISDICTION
This Court has jurisdiction under 28 USC 1254 (1)
CONSTITUTIONAL PROVISIONS INVOLVED

•f

6

The First Amendment Guarantees the to Right Free Speech and the Right To
Petition the Government for a redress of grievances.
The 14th Amendment’s Equal Protection Clause Provides:
“. . . nor Shall any State . . . Deny to any person within its jurisdiction, the
equal Protection of the Laws
THE 6th AMENDMENT guarantees the rights of criminal defendants, which
including the right to a public trial. . . the right to an impartial arbiter of facts, and
the right to know nature of the charges and evidence against you.

STATUTORY PROVISIONS INVOLVED
42 USC 1983 provides for civil action and municipal and police liability when a
state actor, under the color of law, deprives the plaintiff of rights, privileges, or
immunities guaranteed under federal law or the U.S. Constitution
42 USC 1985 provides in part that 2 or more persons obstruct the course of justice
and intimidate a party when they conspire to deter, by force, intimidation, or threat,
any party . . ain a court of the United States from attending such court or from
testifying to any matter pending therein . . .
The Violence Against Women Act Title IV of PL 103-322 was enacted to address
congressional concerns about violent crime against women in several ways;
Among issues that VAWA addresses are domestic violence . . . and Stalking.
The fundamental goals of VAWA are to prevent violent crime; respond to the needs
of crime victims; learn more about crime; and change public attitudes . .
PA Title 23 Ch 61 (Domestic Violence Act) provides:

7

*v

The court MAY order the defendant to relinquish firearms as part of a
temporary order if the petition demonstrates (1) abuse involving a
firearm OR (2) an immediate and present danger of abuse. 23 Pa.C.S.
§6107(b)
18 Pa, $6105: MANDATES law enforcement to CONFISCATE firearms of
Abusers who are subjected to Court Protection From Abuse Orders;
Section 6113 of Title 23 provides for arrest of ABUSERS who violate Court
Orders.
55 Pa Code § 5100.53 Patient Bill of Rights: Provides in Part:
• A Patient’s right to make complaints and to have one’s complaints heard and
adjudicated properly
• A right to not be subjected to any harsh or unusual treatment
PA Criminal Code 18 Code §2709 (Harassment) Provides in Part:
t (a) A person commits the crime of harassment when, with intent to
harass, annoy or alarm another, the person
1 (e) Application of section.—This section shall not apply to
constitutionally protected activity.

18 PaCS 6105.2 and 23 Pa CS 6108 provide:
If a Defendant (Abuser) subject to a Court Restraining Order FAILS TO
RELINQUISH firearms to the appropriate law enforcement agency, that law
enforcement agency SHALL immediately notify the necessary parties,
including the court and the plaintiff of the failure to relinquish
18 USC 922(g) Prohibits individuals who are subjected to Domestic Violence Court
Orders from owning or possessing Firearms
P.L. 484. No. 70 Cl. 23- ADULT PROTECTIVE SERVICES ACT Provides for
protection of abused, neglected, exploited Adults
Section 102. Legislative policy. States:
Adults who lack the capacity to protect themselves and are at imminent

8

risk of abuse lneglect, exploitation or abandonment must have access to
services necessary to protect their health, safety and welfare
PA Criminal Code 18 Code §2709 (Harassment) Provides in Part:
K (a) A person commits the crime of harassment when, with intent to
harass, annoy or alarm another, the person
f (e) Application of section.—This section shall not apply to
constitutionally protected activity.

STATEMENT
A. Factual Background
Petitioner, B Brown is a medically vulnerable cardiac patient and permanently
disabled veteran who in 2014 was recovering from emergency OPEN CHEST,
OPEN-HEART Surgery—rendering her physically and medically DISABLED.
Her abuser’s gun violence and stalking (and police apathy and complicity)
became so stressful in April 2014, that Plaintiff WENT INTO HEART FAILURE.
For weeks in April 2014, in retaliation for Plaintiff having stood up for and
provided moral support to the ABUSER’S recent assault victim (a nurse employed
by Plaintiffs treating medical center),-and because Plaintiff questioned the
abuser’s reported long history of battering women and children— Plaintiffs Abuser
(half brother with whom she had only recently become barely acquainted) made
credible threats to “bust down her door”, He’s “gonna give her a problem she can’t
handle”, sending profane emails from his previous victims email address;
attempting to break into Plaintiffs home with loaded firearm; discharging his
loaded firearm outside Plaintiffs bedroom window, cutting her telephone line

9
stalking her in the middle of the night; making 3rd party threats that if Plaintiff
reports the PATIENT ABUSE to his employer, “there’s gonna be trouble”.
THEN MAKING FALSE REPORTS OF HARASSMENT TO HIS LOCAL POLICE
PRECINCT about Plaintiff.
On April 18, 2014 Plaintiff was HOSPITALIZED—and needed to wear a
HEART MONITOR. Upon her discharge from the Hospital on April 21, 2014, she
filed a Petition for Protection From Abuse to keep her abuser away from her at horn
church and at the medical center where her abuser was employed-- and where
Plaintiff was a CARDIAC PATIENT .
** After Plaintiff filed her Protection From Abuse Petition, Police Retaliation
began—which encouraged escalated violence by her abuser.
1. Police Misconduct And State-Created Danger
It is axiomatic that Law Enforcement may not do indirectly or by proxy what
the Constitution Does not Permit or what is prohibited by law. But they do it
anyway when they believe they can get away with it.
It is apparent that the Police Chief, who himself is Domestic Abuser
(GOOGLE news article, “Chester County Police Chief Again Charged . . .” ), used a
disaffected and mentally disturbed career domestic batterer as his own proxy
through whom he himself could vicariously and indirectly engage in his pastime of
Violence Against Women and a stalking campaign that lasted for more than 4 years
a. In this matter, the Police Chief intentionally misled the VICTIM by inviting
her to contact him at any time and giving her false promises of helping her.

10
He stated that he was going to “Monitor her abuser’s emails”. But instead he
illegally TAPPED the VICTIM’S phone and enticed the ABUSER to access
Plaintiffs protected Medical Files at the Medical Center where the abuser was
employed. Also the Police Chief reported back to Plaintiffs abuser, the content of
conversations between himself and Plaintiff—in the process, instigating and
inciting escalated violence, threats by the ABUSER and attempts on Plaintiffs life.
b. And then the Police Chief CRIMINALLY CHARGED Plaintiff (the
actual VICTIM)
2. Defendant Police Chief acknowledged that he knew the abuser was NOT a
victim (but was “Only Putting on a Fake Front and Pretending to Be a
Victim”)
a. But he nonetheless advised the actual ABUSER to file a CRIMINAL
COMPLAINT on April 24, 2014 against his victim—and told the ABUSER to inform
the Common Pleas Court about the “Pending Criminal Charges” against his victim
during his VICTIM’S May 2014 Civil Protection From Abuse Hearing—in order to
prejudice the male judges against the abuse victim and make it less likely
for his victim to be granted protection and for the Abuser to be convicted
of Abuse or lose his government job for patient abuse.
3. Also, in this matter the County courts looked on in amusement, bought into the
Police Chiefs mythology and played along with his very dangerous game1.

1 The Police Chief called in favors within the county Courts, as the MDJ was a former police officer
in the same Township and many of the Common Pleas judges are former ADAs who know and have
worked with the Police Chief.

11
They denied Plaintiffs request for a permanent restraining order-attributed the
Abuser’s life-threatening stalking and gun violence toward his Victim to an intra­
family dispute and to intra-group dynamics and CULTURAL NORMS in “Some
Groups”—“therefore does NOT rise to the level of Abuse” The Common Pleas court
DENIED Plaintiffs Petition for Protection WITH PREJUDICE—despite her
abuser’s pattern of stalking, vandalism, attempted break-ins; and possession &
discharging illegal firearms outside her home.
4. After the Court REFUSED to Extend Plaintiffs Protection from Abuse Order
beyond the Temporary restraining order, the Police Chief (by his own admission)
ADVISED the ABUSER to file a retaliatory PETITION for Protection From
Abuse AGAINST HIS VICTIM (absent legitimate cause or supporting evidence of
violence or threats of violence).The abuser’s petition stated as much when it
referenced Plaintiffs original case number as being related to his civil action
against his victim (Plaintiff).
5. The Common Pleas judge who presided over what was clearly a Retaliatory
action by the ABUSER/STALKER had apparently presided over an earlier PFA civil
action where the ABUSER was the defendant with a DIFFERENT abuse victim.
6. The Common Pleas judge bullied Plaintiff (the Actual Abuse Victim), resorted
to name calling and making personal attacks—and played demeaning games and
tricks on Plaintiff—asking her what she’d like the court to command her abuser to
do^-then denying the request. The presiding judge even ADVISED Plaintiffs

12
ABUSER to work with the police to try to have THE VICTIM involuntarily
committed to a mental institution.
7. But because The Police Chiefs Proxy ABUSER friend produced NO
EVIDENCE to support his retaliatory Civil Action, the presiding Common Pleas
judge RELUCTANTLY Denied the ABUSER’S petition (but without prejudice­
opening the door for ENDLESS retaliation, harassment and stalking).
8. On October 6, 2014, ADA exclaimed, “These People Are Terrorizing You”. But
she took NO action.
***The ABUSER stalked Plaintiff/Petitioner for the NEXT 4 YEARS—
returning with loaded firearm in Late 2014, as well as in 2015, 2017 (when Plaintiff
commenced this civil action) and again in 2018 to dissuade Plaintiff from testifying
against him and an accomplice in a HIPAA violation matter.
9. The ADA exclaimed on October 6, 2014, “These People Are Terrorizing
You”,

but DID NOTHING.

B. Additional Relevant Background Information
1. Plaintiff had always had a great deal of respect and admiration for Police
Firefighters and other first responders because of what she viewed as their selfless
public service and valor.
However, in April 2014 Valley Township Police Bureau disabused Plaintiff of
such lofty notions (when on April 28, 2014, she received a criminal summons
2. On April 21, 2014 Following her discharge from the hospital (monitoring for
stress-induced coronary event), Plaintiff filed a Petition for Protection From Abuse
with the Common Pleas Court

13
The Police Chief, In Retaliation On Behalf Of His Fellow Abuser, Filed 2
Criminal Citations (April 21, 2014 And April 24, 2014) Against Plaintiff (the
actual victim) alleging that she was harassing her ABUSER.
3. Unbeknownst initially to Plaintiff,, on April 21, 2014 Defendant wrote a
summary citation-charging Plaintiff with harassment of her ABUSERpurportedly pursuant to 18 PA Code §2709. (but did not send it out).
The Citation Report alleged that Plaintiff had harassed the police Chiefs Valley
Twp Resident (Plaintiffs ABUSER) by sending an EMAIL Dated April 18, 2014 at
12:08pm to his previous assault victim ( a registered nurse at her government
Medical Center work email address—and where Plaintiff was a cardiac PATIENT.
But because their ABUSER either hacked into the nurse’s email account or
coerced (under the threat of violence) the nurse into logging him into her account
their common ABUSER read Plaintiffs private email and was ANNOYED—and
complained to his Twp Police Chief (police in Plaintiffs township and the nurse’s
township told him that he was not a victim and Plaintiff had committed no crimes).
Defendant Police Chief, although required by State Statute-- did NOT send out
the Citation OR the Summons. Instead he and the MDJ apparently held a
“hearing” in Plaintiffs absence. Hence the un-sent summons became an ARREST
WARRANT.
4. On April 24. 2014 Plaintiffs ABUSER told the Domestic Violence advocate that
unless Plaintiff (The Victim) WITHDRAWS her Petition and “Drops her

14
complaint”, that he and the Police Chief are going to FILE CRIMINAL CHARGES
AGAINST HER. Plaintiff REFUSED to withdraw her Petition for Protection.
So, the Police Chief and the Abuser filed a criminal complaint at the
Magisterial District Court on the same day—naming Plaintiff (the actual
victim) as the perpetrator of the crime; while designating her ABUSER as the
innocent victim of Plaintiffs alleged criminal harassment.
The following morning (April 25) her ABUSER traveled to Plaintiffs
home at about 4:30 in the morning and CUT her TELEPHONE LINE and
attempted to unhinge her back door and discharged his firearm outside
Plaintiffs bedroom window.
5. The Police Chief wrote a second Criminal Citation on or around April 23
2014— and filed it on April 24 with the Magisterial District Court—also pursuant
to 18 PA Code §2709 . The Citation charged Plaintiff for MAILING a copy of her
April 21, 2014 Protection From Abuse Petition and Court Order TO HER
ABUSER.
6. On or April 28, 2014 Plaintiff received the summons for the second Citation
(but never received a summons for the first citation). The Police Chief and Bureau
REFUSED to give Petitioner a copy of the CITATIONS.
Police Chief supported the malicious criminal charges by accusing Petitioner of,
“You Violated Your Own Protection From Abuse Order” by MAILING a copy of the
Court Order to her Abuser. He and chastised the Petitioner exclaiming, “You can’t
file a PFA against an abuser and then contact the abuser”

15
On June 3, 2014 when Plaintiff appeared at the summary hearing at
Magisterial District Court not knowing what the charges were, the Magisterial
District Judge ALSO told her, “YOU VIOLATED YOUR OWN (PFA ORDER9 By
mailing a copy to your abuser)2.
Also on June 3, 2014, The MDJ told Petitioner (the actual VICTIM) that “there is
a WARRANT out for your arrest, so it is IN YOUR BEST INTEREST TO SIGN this
no-contact CONTRACT” (which actually turned out to be an “alternative sentencing
agreement—the title of which the MDJ concealed with the sleeves of his judge’s
robe while coercing the Victim to sign it).
7. Not only did the Police Bureau and Police Chief have an established practice
of Retaliating against Victims who Filed Protection From Abuse Petitions
against their Abusers, but ALSO the Police Bureau had an apparent established
practice of ethnically profiling individuals who reside outside of the Township to
fulfill a monthly arrest quota.
For example, the Police Blotter indicates that during the 2 weeks period in April
2014 that Valley Twp Police TWICE cited Plaintiff as a criminal suspect, 90% to
95% of those arrests and citations were of People of Color ( Hispanics, Caribbean,
African American)—even though Valley Township’s Hispanic and Black combined
population was less than 25%.

2 This was strangely similar to a 2015 allegation that the MDJ made during his campaign in a
public statement about one of his competitors. The MDJ publicly accused his opponent of “ Violating
Her Own PFA” when she contacted her former Domestic Abuser.

16
8. In Defendant Police Chief and Valley Township’s Response to Discovery Request
for “Admissions”, Police Chief acknowledged that he had been aware that Plaintiff
Has NO Violent or Criminal History.
9. Throughout his harassment campaign, the Police Chief acknowledged the
ABUSER’S long history of anger issues, violence, child abuse, abuse of disabled
veterans and violence against women.
YET, Defendant initiated and pursued a dangerous retaliatory prosecution
campaign against a NON-VIOLENT, NON-CRIMINAL VICTIM OF ABUSE while
sympathizing with, supporting, rewarding, protecting a known VIOLENT and
CRIMINAL ABUSER—whom he incited to escalated violence against his VICTIMS.
10. Defendant’s Retaliatory Conducted Established State-Created Danger
Defendant Police Chief Emboldened, Enabled, Encouraged and Endorsed the
stalking and life-threatening gun-violence of his fellow abuser When HE:
a. Returned Firearms (against petitioner’s express wishes) to a known violent
and mentally disturbed Patient Abuser and Domestic Abuser who only 2 months
earlier had assaulted and threatened to kill a Registered nurse at the Medical
Facility where Petitioner was a CARDIAC PATIENT
b. Although the Police Bureau’s signed Property Log indicates (in
Police Chiefs handwritten notes) that the abuser/defendant relinquished
an EMPTY 22 caliber handgun box,
and DESPITE the fact that Plaintiff (the victim) reported gunfire during pre-dawn
hours outside of her bedroom window (on or around April 25, 2014) AND she heard
her stalker cut her telephone line and heard him walking to hide behind a tree and
watched him in the parking lot; AND ALTHOUGH she found, a SPENT 22

17

CALIBER bullet shell in the same vicinity and then hand-delivered it in early
May, 2014 to the Police Chief, Defendants in NONETHELESS:
•

Refused to Confiscate the Abuser’s Firearms in compliance with the State
Protection From Abuse Statute (PA Title 23 Ch 61) or

•

Report that the Abuser Failed to Relinquish Firearms pursuant to Court
Order related to Plaintiff/Petitioner’s subsequent Petition for Protection
From Abuse

11. Defendant Police Bureau Ignored and refused to document Plaintiffs (the
Victim) complaints, but documented the Abuser’s complaints that the Victim had
“contacted” (made a complaint) with his medical center employer and that he (the
Abuser) had found an email that his victim had sent to a to his previous assault
victim (Registered Nurse)—in his other domestic violence victims private email.
13. Defendant Police Chief instead, Maliciously Criminally Cited and Prosecuted
Petitioner pursuant to 18 Pa Code § 2709 (a)-- under the pretext that Plaintiff had
allegedly harassed her abuser: Although it was the ABUSER who had grabbed
and shook Petitioner while purportedly demonstrating his aggressive actions
toward -and which injured his previous assault victim (registered nurse), and sent
profane and threatening emails to Petitioner as a traumatized cardiac patient; and
attempted to break into her home with a LOADED FIREARM.
14. Plaintiff, as well as 2 friends who worked for the county contacted the Police
Chief AND the Township Supervisor by phone and email to express concerns and
lodge complaints about the Police Chiefs targeted harassment of Plaintiff—an
ABUSE VICTIM. However, the complaints went un-answered and concerns
remained un-addressed.

18
15. The Police Chief assured Plaintiff that he had the situation under control and
that he would be monitoring the ABUSER’S emails. But instead he illegally Tapped
Plaintiffs phone line and directed the ABUSER to access and deliver parts of
Plaintiffs Protected Medical File—absent court order.
C. Procedural Background
1. DISTRICT COURT PROCEEDINGS
Acting Pro Se, Plaintiff/Petitioner filed this civil action on April 4, 2016 under
42 USC 1983 and 1985 alleging that Defendant Police Chief, Police Bureau and
Valley Township Board of Supervisors-- acting in their official capacity and in
accordance with an unwritten, but accepted policy practice - Maliciously Prosecuted
Plaintiff in Violation of her Constitutional Rights to Report Abuse; and to Seek
Protection From Abuse.
She also alleged that by Criminalizing her , while coddling and sympathizing and
aligning himself with her abuser and refusing to confiscate his illegal firearms (per
court order), Defendant Police Chief established a Sate-Created Danger—placing
Plaintiff in heightened danger, as his acquiescence and indulging the ABUSER
served to encourage, endorse, empower and emboldened her abuser—putting a
target on Plaintiff and declaring open hunting season on her.
a. August 2016 Motion for Injunctive/Equitable Relief From
Intimidation
Within 2 months of having been served with Plaintiffs civil action, Defendant
Police Chief CONTACTED Plaintiffs ABUSER and informed him that Plaintiff had

19
filed suit against him.
The abuser resumed his harassment campaign—by repeatedly texting and
phoning Plaintiffs process server and making threatening statements about
whether or not Plaintiff has a right to file a civil action against his Police Chief.
Therefore Plaintiff asked the Court to ENJOIN Defendant from INTIMIDATION
(directly and indirectly through their proxy abuser).
On November 17, 2016. and Again on August 26. 2019 the District Court
DENIED Plaintiffs request to enjoin Defendant from (indirectly) INTIMIDATING
Plaintiff.
On September 28. 2018 The Court DENIED Plaintiffs Cross-Motion for
Summary Judgment (Doc 97) because Defendant argued that Plaintiff filed it as a
Summary Judgment Motion AFTER the deadline date—even though the Court
extended the deadline because of Defendant’s Discovery Abuses (stonewalling).
On November 5. 2018 Plaintiff AGAIN asked the Court to ENJOIN Defendant
from enabling her ABUSER to continue his threats with firearms in light of his
threats to 3rd parties and his having DISCHARGED HIS FIREARM again near
Plaintiffs home in the middle of the night (Plaintiff captured security video of him
driving off).
Defendant OPPOSED Plaintiffs Requests for Equitable Relief: ENJOIN her
abuser from his subtle (3rd party) stalking campaign and to DISARM her illegally
armed abuser/stalker.
On August 26, 2019 The Court DENIED Plaintiffs SECOND request for equitable

20

relief in the SAME ORDER in which it GRANTED DEFENDANT’S Summary
judgment motion
b. April 2017 ORAL ARGUMENTS
(1). After a great deal of Discovery Abuses, foot-dragging and Stonewalling
(obstruction) by Defendant, the Court held Oral Arguments on the Defendant’s
January 24, 2017 Summary Judgment Motion and gave lip service to addressing
Plaintiffs March 1, 2017 Opposition Response and Counter Motion.
(2). The Recorded Audio Transcript of the Oral Arguments indicate that the
Court lacks impartiality.
That is to say, the Court started out by asking Defense Counsel “Pointed
Questions”—which were actually LEADING QUESTIONS about “PROBABLE
CAUSE—although Defense Counsel had not previously used the phrase.
Also the April 2017 oral argument recorded audio transcript show that the Court
had already pre-determined3 the outcome of the case.
The Court ARGUED on behalf of Defense Counsel and put words in Defense
Counsel’s mouth by asking, If Defendant Police Chief File Charges Against
Plaintiff “because HE BELIEVED HE HAD PROBABLE CAUSE”?
(3). Prior to the court’s leading question, Defendant had not vehemently argued

3 It came to Plaintiffs attention from a Local Newspaper Article in 2018 that the Article III judge
assigned to this case is ALSO a resident (and former member of the common pleas court bench) of
the same county where the Defendants are located and is a former colleague of the Magisterial
District Justice who presided over Plaintiffs criminal summary hearing and former colleague of the
Common Pleas jurists who presided over Plaintiffs “Protection From Abuse” matter-and whom
Defense counsel identified by name in Defendant’s briefs.

21
“Probable Cause” or any case law related to “Probable Cause”—but instead
persistently denied that there were “any constitutional violations” and “immunity”.
(4). The District Court also argued on behalf of Defense counsel that Defendant
was justified in filing the Criminal Citation in response to Plaintiffs April 18,
12:08pm EMAIL that Plaintiff had sent to a NURSE (abuser’s previous assault
victim) at the medical center where Plaintiff received medical treatment.
(5). The Court, during Oral Arguments ALSO URGED Defense Counsel to falsely
that:
Because Plaintiffs ABUSER (who also bullies and threatens the nurse) and
“accesses” the (NURSE’S) email account (through coercion or hacking)—
then the medical center workplace email address to where Plaintiff sent the
April 18, 3024 12:08pm email message (addressed and intended for the
nurse)
served to HARASS HER ABUSER , . .
because her ABUSER was annoyed and distressed over the email sent to
the nurse at her medical center work email address AND
because the Court’s and Defense Counsel’s ARGUED, that the ABUSER’S
previous victim’s email address is where he sometimes “receives emails”
•kick

even though Plaintiffs INTENDED RECIPIENT (hence was emailed
to) was the nurse at her Medical center workplace email address and . . .
•

although the abuser has a distinct and separate email address from the
Nurse’s workplace email address where Plaintiff sent her April 18, 2014
email).

The Court gave Plaintiff very little opportunity to speak during the oral arguments
and often cut her off.
At the close of Oral Arguments, the Court stated that it will make a decision “In
Short Order” and if he grants Defendant’s Summary Judgment motion, he will give
a fair and complete explanation. The Court made NO mention of Plaintiffs
Opposition Response and Counter Motion

22
(6). However, it took the court more than 2 years to “DECIDE” and make a final
judgment.

And the Opinion Memorandum (Dist Ct Doc 143) was rife with

procedural, legal (and ethical) errors.
c. The District Court’s Plagiarized August 26, 2019 Analysis and Opinion
Memorandum (Doc 143) Discredits the Adjudication Process and
Sabotaged this Case.
(1). On August 26. 2019 The District Court GRANTED Defendant’s “January
24th 2017 Summary Judgment Motion Not only did the Court falsely argue that
Defendant had Probable Cause to Criminally Prosecute Plaintiff,
But the Court repeatedly IGNORED the 800 lb Gorilla in the room—that
PARAGRAPH “(e)” of The criminal statute (18 Pa Code §2709) ERASES
Probable Cause, because it EXCEPTS CONSTITUTIONALLY PROTECTED
ACTIVITY from its application.
The Court IGNORED Defendant’s FIRST AMENDMENT VIOLATIONS and
downplayed the fact that Plaintiffs Activity was not criminal and was Protected by
the FIRST AMENDMENT.
That is to say, The Court REFUSED to acknowledge that Plaintiffs April 18.
2014 12:08pm Email to her medical center’s nurse AND her April 21st 2014 Petition
for Protection From Abuse are non-criminal ACTIVITIES but were PROTECTED by
the FIRST AMENDMENT (which ^ (e) of the Criminal Statute excepts from its
application and)—which Plaintiff repeatedly pointed out in her pleadings.
(2). To add extra insult to injury, the Court’s Opinion Memorandum
represented DIRECT COPY & PASTE from Defendant’s un-researched and

23
conclusory Summary Judgment Motion
d. The Court’s Opinion Memorandum Analysis Was Flawed In Numerous
Other Ways. It Evinced Egregious Fundamental Errors At The Outset.
(1). Just as Defense counsel did, the District court opened it’s opinion
memorandum (Dist Court Doc 143) by attempting to diminish the gravity of the
Stalking, Gun Violence, Assault and Threats (ABUSE) by mischaracterizing the
protracted abuse campaign as merely an “intra-family” dispute between half siblings
(as though co-sanguinity somehow diminishes the gravity of and destruction
of human lives caused of domestic violence, elder abuse, Patient Abuse and
Violence Against women)—when in fact the abuser has a long (50 years) history
of violence against women and children—about which Defendant was aware
because Defendant admittedly has known Plaintiffs abuser longer (27 years in
2014) than Plaintiff has known her abuser.
(2). The District Court’s Opinion and Analysis even INCLUDED Defendant’s BATES
FILE NUMBERING SYSTEM (to the Exclusion of ANY reference to Case File Documents
identified by the Court’s Docket numbering system or Plaintiff’s Opposition Response (Dist
Court Doc 97) and attached Exhibits).
FOR EXAMPLE, on Page 4 of the Court’s Dispositive “Opinion Memorandum (Doc 143), the
COURT’S AUTHOR WROTE (Directly From Defendant’s Narrative):
“Over the course of the next few weeks, Plaintiff repeatedly contacted Friel regarding her
fear that James was trying to harm her.
See VTWP00027-28 (April 28, 2014, Fax); VTWP00024-26 (April 28, 2014, Email);
VTWP00029-30 (April 30, 2014, Email); VTWP00039-40 (May 1, 2014, Email);
VTWP00038-39 (second May 1, 2014, Email); VTWP00032 (third May 1, 2014, Email);
VTWP00055 (May 2, 2014, Email)”

f

24

ALSO, For Example, the District Court, in its August 26, 2019 “Opinion
Memorandum” extracted, then Copied and Pasted from Defendant’s Summary
Judgment Motion brief, the Following utterly astounding declaration:
“Even if Plaintiff could show that she suffered a deprivation of liberty consistent with
the concept of seizure as a result of FrieVs citations the Court would nevertheless grant
summary judgment because Plaintiff has failed to produce evidence that Friel acted
“maliciously or for a purpose other than bringing [her] to justice.” Estate of Smith v.
Marasco, 318 F3d 497, 521 (3d Cir. 2003).
e. That COPY & PASTE Statement (Alternative Narrative) is but one of the countless and
exhausting misstatements and distortions of laws, facts;

and conflation of case law— that runs

throughout the District Court’s clearly biased Dispositive “Opinion” memoranda (Docs 143,
152)- which overtly argue on behalf of Defendant—and in most instances are COPIED and
PASTED DIRECTLY from Defendant’s false narrative and flawed legal arguments.
f. On April 10. 2020. The District Court DENIED Plaintiffs September 15, 2019
Rule 59e and Rule 60(b) Request for Reconsideration (Doc 147).
(1) The District Court Erroneously Stated ( Doc # 152 ) in Part:
•

“The Court will deny the motion for reconsideration because the Court did not
make any errors of law orfact”.

•

“For example, Brown argues the Pennsylvania Political Subdivision Tort Claims
Act (PSTCA) does not apply to her federal law claims, but the Court applied this
act to Brown’s state tort law claims ”

•

“She also argues that the Court improperly interpreted her Monell claims as
based on respondeat superior, but the Court denied her Monell claims because
she failed to present evidence ofany constitutional violations. Id. at 26-27. The
Court merely mentioned respondeat superior to note that this was not a basis for
liability.”

(2). The District Court was again covering for Defendant’s flawed arguments. However, it
OVERLOOKED the overt REVERSIBLE ERRORS, FUNDAMENTAL ERRORS AND

25
PROCEDURAL ERRORS throughout the Court’s Opinion Memorandum (final judgment) that
Plaintiff asserted arose from the Court’s COPYING & PASTING one Party’s Dispositive Motion
(Defendant’s Docs 73 and 100) to the Exclusion of Supporting counter Evidence presented by
the non-movant and Opposing Party (Doc 97:Plaintiff s Opposition Response and Counter
Motion:
(3) Additionally, The District Court INCORRECTLY ARGUED That There Were No
Constitutional Violations To Support A Claim Under 42 Use 1983
However, the US Supreme Court, in Gomez v Toledo, 446 US 635,638 (1980), determined
that only two elements must be pled to properly assert a cause of action under 42 USC § 1983.
•
First, the Plaintiff must specifically identify the constitutional right of which he or
she was deprived. Id. at 640.
•
Second, the Plaintiff must assert that “the person who deprived him of that federal
right acted under color of state or territorial law.” Id.
(4). EQUALLY IMPORTANT, The District Court’s “rebuttal” response also FAILED TO
ADDRESS the GLARING First Amendment Rights VIOLATIONS and Defendant’s failure to
PROVE criminal intent and PROBABLE CAUSE to justify criminally Prosecution of a
PERMANENTLY DISABLED ABUSE VICTIM for exercising her RIGHT TO PETITION
the state for PROTECTION and Right to PETITION the Government Medical Center (nurse)
FOR REDRESS OF GRIEVANCE.
(5). In this case, the District Court did NOT formulate its own INDEPENDENT
opinion—but copied and pasted DEFENDANT’S ARGUMENTS—which is why the Court’s
“Opinion Memorandum (Doc 143) takes on an ARGUMENTATIVE tone—that echoes
Defendant’s arguments and attitude.
2. APPEALS COURT PANEL DECISION
Plaintiff, acting Pro Se, filed her Notice Of Appeal” on May 7, 2020

26
and uploaded her Informal Appeals Brief On July 12, 2020,.
a. Appellees/Defendants submitted a barebones reply brief in which they merely
asserted that the Decision of the District Court is correct and again denied that
there were any constitutional violations. However, at the coaching from the District
court during oral arguments, Defendants added the PHRASE “Probable Cause” to
their arguments
b. Throughout her Appeal Brief, Appellant/ Petitioner pointed out the District
Court’s Reversible Fundamental Legal Errors and Procedural Errors that sabotaged
the case.
(1). Petitioner pointed to the Court’s errors in overlooking the plain language in
the state Criminal statute that EXCEPTS Constitutionally Protected Activity from
its application; and that Plaintiffs activities as AN ABUSE VICTIM were
constitutionally FIRST AMENDMENT Speech and Petitioning.
(2). Petitioner also pointed to the District court’s conduct during April 2017
ORAL ARGUMENTS—during which the Court COACHED and asked LEADING
QUESTIONS of Defense Counsel—as though the court had a vested interest in the
outcome of the case.
(3). Also, throughout Petitioner’s Appeals Brief (and Reply Brief),
Appellant/Petitioner REPEATEDLY showed the Appeals Court that the District
Court’s decision to COPY & PASTE Defendant’s Summary Judgment Motion and
Briefs was at odds with 3rd Circuit holdings, but also is at odds with SCOTUS
Holdings: For example:

27

The 3rd Circuit Has Defined Deliberate Indifference As:
Requiring a "conscious disregard of a substantial risk of serious harm" See Vargas v.
City of Philadelphia, 783 F.3d 962,973-74 (3d Cir. 2015) (quoting Ziccardi v. City
of Philadelphia, 288 F.3d 57,66 (3d Cir. 2002)
The 3rd Circuit Court of Appeals In re: Asbestos Products Liability Litigation (No. VI), (May
16,2016)—addressed whether it was PROCEDURAL ERROR TO DISMISS a complaint based
on facts that were NOT in the complaint and that were NOT undisputed.
(4). In Plaintiffs Appeal brief she stated about the District Court’s GRANT (doc
143,144) of Defendant’s summary judgment motion (doc 73) without considering argument
and evidence in plaintiffs opposition response (doc 97):
This Court Action is At odds with the US Supreme Court’s Caution to District Courts
in Tolan v Cotton civil rights case (May 2014) about the common error of crediting the
evidence of the party seeking summary judgment While Failing To Properly
Acknowledge Key Evidence Offered By the Opposing Party .This court action is also
at odds with the US Supreme Court’s Holding in Anderson v. Liberty Lobby, Inc
0986) in which the US Supreme Court Stated:
‘“VU the summary judgment stage, the trialjudge's function is not himself to
weigh the evidence [and determine the truth of the matter but to determine
whether there is a genuine issue for TRIAL”
(5). PlaintiffyPetitioner ALSO stated in her Appeals Brief:
Third Circuit cases interpreting Albright v Oliver suggest:§1983 Malicious Prosecution
claims may be predicated on Constitutional Provisions other than the 4th Amendmentsuch as procedural Due Process or other Explicit Text Of The Constitution (SEE Torres v
McLauglin 1998).
(6). Plaintiff Further stated in her Appeal Brief:
“THE 800 POUND GORILLA: First Amendment Right Violations

28

Paragraph (e) of 18 PA§ 2709 PROHIBITS criminalization of Protected activity
HOWEVER, The Fundamental FACT that the District COURT PERSISTENTLY
OVERLOOKS in each and every Dispositive Memorandum and Order (Docs 143, 152,
69) Is The April 21,2014 FIRST AMENDMENT RIGHT VIOLATION associated
with Defendant Police Chief Friel’s RETALIATORY and VINDICTIVE Criminal
Charges (18 PA Code 2709: Harassment) and MALICIOUS PROSECUTION (SEE
Doc 5 CHARGING DOCUMENTS) of Plaintiff for her having engaged in Protected
Activity—which was Petitioning Govt’ employee—outside of Defendant’s jurisdictionfor Redress of Grievance and to REPORT PATIENT ABUSE (SEE Doc #5 pp 52 and
73-lpp53: April 18,2014 email to Federally Employed Registered Nurse).”
(7). Additionally. Plaintiff Wrote in her Appeals brief about the District Court’s
overlooking Defendant Police Chiefs unconstitutional actions the following:
“He ALSO RETALIATED on behalf of his friend (of 27 years in 2014... For
Plaintiff having SOUGHT PROTECTION FROM ABUSE (pursuant to Pa Title 23) from
Defendant Friel’s friend/Proxy and fellow-abuser,.. ..
Valley Township (now-former) Police Chief Friel’s violations of Ms Brown’s
constitutional and statutory rights began with his DISTORTION of 18 Pa §2709 (and
associated malicious prosecution)— in violation of Ms Brown’s 1st Amendment
right to petition federal employees for redress of grievance.”
c. Nonetheless, The Appeals Court 3-Panel Affirmed the District Court’s
Ruling despite
The Appeals Court Panel’s Jan 28, 2021 AFFIRMATION of the District Court’s
final Judgment is at odds with its own Holdings regarding Judicial Plagiarism and
the Requirements of FRCP 56.
The 3rd Circuit Court of Appeals in Halsey v Pfieffer (2014) ruling on reviewing orders entered
on motions for summary judgment Fed. R. Civ. P. 56(a)
“When defendants move for summary judgment, they bear the burden
to show that the plaintiff has failed to establish an essential element of

29
his claim. A court must view the evidence in the light most favorable to
the non-moving party and give that party the benefit of all reasonable
inferences, which must flow directly from admissible evidence.”
The 3rd Circuit Court of Appeals In re: Asbestos Products Liability Litigation (No. VI), (May
16,2016)—addressed whether it was PROCEDURAL ERROR TO DISMISS a complaint based
on facts that were NOT in the complaint and that were NOT undisputed.
In Bright v. Westmoreland County, 380 F.3d 729, 731-32 (3d Cir.2004) the 3rd
Circuit Appeals Court Stated in part:
The central issue is whether the district court had made an independent
judgment.” Id. Here, however, we are not dealing with findings of fact.
Instead, we are confronted with a District Court opinion that is
essentially a verbatim copy of the appellees’ proposed opinion....
. . . But there is no authority in the federal courts that countenances the
preparation of the opinion by the attorney for either side. That practice
involves the failure of the trial judge to perform his judicial function.
Chicopee Mfg. Corp. v. Kendall Co., 288 F.2d 719, 725 (4th Cir.1961)
(emphasis added).
The 3rd Circuit Further Stated in Bright v. Westmoreland County:
“When a court adopts a party’s proposed opinion as its own, the court
vitiates the vital purposes served by judicial opinions. We, therefore,
cannot condone the practice used by the District Court in this case”
In this Present case, the Appeals Court panel failed to address the fundamental,
but critical issues raised regarding the District Court’s procedural and legal
errors—and abuse of Discretion.
The Appeals Court Panel put forth NO honest effort to even address, much less
resolve the issues that foreclosed Plaintiffs right to be heard and that impede
justice for Abuse Victims who face retaliatory prosecution and other intimidation
Instead, the Appeals Court dodged the real issues and offered straw arguments

30

that failed to address the elephant in the room (District Court’s abuse of discretion
and dereliction of duty; abdication of judicial authority—which should render the
District Court’s ruling a NULLITY.
The Appeals Court Denied Petitioner’s Request for Rehearing En Banc on March
2, 2021 (electronically filed and retrieved March 3)

REASONS FOR GRANTING THE PETITION
I. THE LOWER COURTS DECIDED AN IMPORTANT FEDERAL
QUESTION THAT HAS NOT BEEN, BUT SHOULD BE, SETTLED BY THIS
COURT
A. This Court has NOT settled the question of legitimate PROBABLE CAUSE in
the context of RETALIATORY Criminal Prosecution of ABUSE VICTIMS who
REPORT the abuse and PETITION The State Court for PROTECTION from Abuse
-- as an exercise of the victim’s First Amendment RIGHT TO PETITION.
Some Federal Courts and a few Appeals Courts have held that making
complaints to the police and reporting criminal conduct constitute protected First
Amendment Right to Petition government entities (See eg Gable v Lewis, 201 F. ed
769, 71 (6th Cir. 2000); See also Estate of Mores Exec u Dapolito (SDNY 2004). Also
see United States u. Hylton (SD Tex 1982.
HOWEVER, None of the Circuits have addressed the Question of PROBABLE
CAUSE in context of retaliatory prosecution of Abuse Victims who Seek Protection.
Although This court has addressed the issue of PROBABLE CAUSE in context of
First Amendment “Search and Seizure” of Books; And while this Court has
addressed the issue of DOMESTIC VIOLENCE in Context of inadequate Police

31
Response; . . and this Court has addressed the matter of Police negligence in StateCreated Danger; and While this Court has also settled questions on Civil (SLAPP)
lawsuits brought against victims of crime who report the crimes. . .
. . . This Court however, has NOT YET decided the question of Under what
Circumstances or Conditions must a pre-textual PROBABLE CAUSE for otherwise
Malicious prosecution NOT automatically DEFEAT an Abuse Victim’s (or any other
Plaintiffs) MALICIOUS PROSECUTION and related Constitutional Violations
claims under 42 USC 1983?
Or put another way, Does STATE CREATED DANGER Caused by Police
Retaliatory Criminal Charges and Prosecution of Abuse Victims DEFEAT the
assumption of Probable cause
In this case, Defendant’s April 18, 2014 and April 23, 2014 Charging Documents
(Citations) Speak for themselves and are included in not only Plaintiffs Opposition
Response to Defendant’s Rule 56 Summary Judgment Motion, but also they are part
of Plaintiffs Complaint.
Defendant’s April 2014 Criminal Citations provide the Date and Time of the
alleged Criminal activity—and DESCRIBE the activity.
Specifically, the April 21, 2014 Citation identifies an April 18. 2014 E-MAIL
that Plaintiff sent at 12:08 pm to her PATIENT ABUSER’S previous assault
victim (a Registered Nurse) who lives and works outside of Defendant Police
Bureau’s jurisdiction.
The Actual April 21. 2014 EMAIL in question clearly shows that Plaintiff sent

32

it to the Registered Nurse to whom it was addressed at the Nurse’s email address
(not her abuser’s email address). And the email was sent to the nurse’s WORK
email address—and NOT to the ABUSER who hacked into the nurse’s email.
When considering the Police Charging Document with the alleged “offending
email” AND in context of the provision of the PA criminal Harassment statute 18
Pa Code §2709’s “EXEMPTION CLAUSE”— Paragraph “{e}”which EXEMPTS
Constitutionally Protected Activity from the Criminal Statute’s Application—
any reasonable person would conclude that Plaintiffs (Medical Patient) email to
the nurse at her government medical center email address is a Petition of the
Government for REDRESS OF GRIEVANCE for PATIENT ABUSE.
The actual Documents that Defendant Police Chief presented as evidence of
criminal activity -any reasonable person would know that that the alleged criminal
activity is actually Constitutionally Protected Activity.
However, the District Court repeatedly overlooked the glaring inconsistencies
and holes in Defendant’s arguments denying constitutional violations. Yet the
Appeals Court acquiesced and sanctioned the District Court’s improper conduct
II.

THE LOWER COURTS DECIDED IMPORTANT FEDERAL
QUESTIONS IN A WAY THAT CONFLICTS WITH RELEVANT
DECISIONS OF THIS COURT.

A. Probable Cause and First Amendment Retaliation
The District Court and Appeals Court’s decisions are at odds with this Court’s
decisions in Lozman v City of Riviera Beach (2018) and Mount Healthy City School
District v Doyle {'1977)

33
In Lozman v City of Riviera Beach (2018), this Court concluded that a claim of
Probable Cause does not always Defeat a claim of Retaliatory Arrest under the 1st
Amendment— when it held that The Existence of Probable Cause for Fane
Lozman’s arrest for disrupting a city counsel meeting did not bar his FIRST
AMENDMENT retaliatory arrest claim under the CIRCUMSTANCES of the case.
In Mount Healthy City School District v Doyle this court concluded that the
Plaintiff (Doyle’s) call to a radio station was protected by the First Amendment
AND that Doyle’s First Amendment activity played a substantial part in the School
Districts adverse action toward Doyle—in violation of the Plaintiffs rights under
the 1st and 14th Amendments.
B. RULE 56 REQUIEMENTS FOR SUMMARY JUDGMENT
In Tolan v Cotton (2014) this court concluded that the District Court credited
the evidence of the party seeking summary judgment and failed to properly
acknowledge key evidence offered by the party opposing that motion. This court
stated in part:
“We intervene here because the opinion below reflects a clear
misapprehension of summary judgment standards in light of our
precedents

III. THE APPEALS COURT SANCTIONED LOWER COURT DEPARTURES
FROM THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS, AND CALLS FOR EXERCISE OF THIS COURT'S
SUPERVISORY POWER
A. Both the district court and the appeals court failed to articulate a factual
basis regarding the reasonableness of the conduct of the Municipal Police Chief

34
toward a permanently disabled ABUSE VICTIM whom the Police chief
acknowledged did NOT have a history of violence or criminal record.
B. Both Courts erred in failing to acknowledge that Court
Protection/Restraining Orders responding to an abuse Victim’s Protection from
Abuse Peition spells out prohibitions directed at the ABUSER (and not the victim).
By failing to acknowledge that fundamental fact and truth, both courts endorsed
Defendant Police Chiefs retaliatory harassment and malicious prosecution of an
Abuse victim who did NOT commit any crime—but who acted in good faith in
REPORTING the abuse and SEEKING PROTECTION from abuse.
l.The Appeals Court’s Affirmation of the District Court’s Ruling is at
Odds with its own Decisions
The 3rd Circuit Court of Appeals In re: Asbestos Products Liability Litigation (No. VI),
(May 16,2016)—addressed whether it was PROCEDURAL ERROR TO DISMISS a complaint
based on facts that were NOT in the complaint and that were NOT undisputed.
The case record shows that Plaintiff persistently DISPUTED Defendant’s and the
District Court’s empty assertions that (1) Defendant had Probable Cause and (2)
that there were no Constitutional Violations; (3) That Defendants were immune
under state law (4) Plaintiff did not provide clear and convincing evidence, etc.
2. The Appeals Court sanctioned the lower Court’s departure from its Article III
duty to serve in the role as a neutral and impartial and competent tribunal during
April 27, 2017 ORAL ARGUMENTS
3. The Court Transcript (ORAL ARGUMENTS File # 0412612017), of the April
27, 2017 ORAL ARGUMENTS to which Plaintiff directed the Appeals Court Panel

35
on the Summary Judgment Motions raises questions about Judicial Impartiality as
it clearly shows that:
(a) The Court ARGUED ON BEHALF of Defendant
(b) The Court Coached Defense Counsel and asked LEADING QUESTIONS of
Defense Counsel— and cut Plaintiff off several times
C. The Appeals Court Sanctioned and Compounded the District Court’s
Outrageous Conduct regarding its August 26, 2019 Opinion Memorandum
and Order (District Court Docs 142 and 143) Granting Defendant’s
Summary Judgment Motion.
1. The case record shows that the District Court COPIED AND PASTED nearly
word-for-word, Defendant’s Summary Judgment narrative instead of conducting its
own balanced, Measured, Research Reasoned and independent analysis or form
its own fully informed opinion. This practice is at odds with the 3rd Circuit’s own
holdings on JUDICIAL PLAGIARISM:
2. That is to say, In Bright v. Westmoreland County, 380 F3d 729 (3d Cir. 2004), the Court
of Appeals for the Third Circuit Wrote:
“Judicial opinions are the core work-product of judges. They are much more than
findings of fact and conclusions of law; they constitute the logical and analytical
explanations of why a judge arrived at a specific decision. They are tangible proof to the
litigants that the judge actively wrestled with their claims and arguments and made a
scholarly decision based on their own reason and logic.
The 3rd Circuit Further Asserted, In The Bright v. Westmoreland County Case, That
“The moving party’s attorney was essentially clerking for the judge.. . There's
something fundamentally misguided here, not unlike ex parte communications.”
3. It is also apparent that the Appeals Court overlooked the fact that the District
Court did not look or analyze the case any further than copying Defendant’s
Summary Judgment Motion (Dist Court Doc 73) to the Exclusion of Plaintiffs

36
Opposition Response (Dist Court Doc 97) and Evidence supporting her claims.
Copying and pasting and then representing Defendant’s motion as those of the
District Court would seem to render the Rulings a NULLITY—throwing a wrench
and fouling up the proper workings of the judicial machinery.
Nonetheless, the Appeals Court sanctioned the conduct of the District Court
4.

The Appeals Court Decision to overlook the District Court’s decision to flout the

requirements of Rule 56 is at odds with the 3rd Circuit’s own Opinions on “Judicial
Plagiarism” as well as the Supreme Court’s holdings in Tolan u Cotton (2014)

CONCLUSION
By not calling out and correcting Defendants Dangerous Conduct toward Abuse
Victims, both the District Court and Appeals Court set a dangerous precedent,
which could subject future abuse survivors to untenable risks when they attempt to
Petition the State for Protection or others for redress of grievance associated with
the Abuse.
When victims of domestic violence, patient abuse and other abuses become
subjected to malicious criminal prosecution simply for reporting the Abuse,
Petitioning for Protection from Abuse and Reporting the violations of Restraining
Orders, then rogue and apathetic Police will continue to not enforce the Court
Protection orders while the victims will be chilled from exercising their FIRST
AMENDMENT right to Petition the state for Protection from Abuse.
In this case, Both the District Court AND the Appeals Court, absent any

*

37
evidence of Criminal Intent or Probable Cause, argued in defense of Defendant’s
Malicious Criminal Prosecution against Abuse Victims (at the behest of the abuser).
The courts’ reckless actions invite rogue police and abusers to abuse the criminal
court process with impunity and without consequences or correction.
When the State (through municipal law enforcement practice or policy) not only
deters a citizen from exercising that fundamental right, but PUNISHES the citizen
FOR exercising her right to Petition, THEN the Practice and Unwritten municipal
policy and the defense of PROBABLE CAUSE should be analyzed with the strictest
of scrutiny.
For the Foregoing Reasons This Petition for Writ of Certiorari should be Granted
Respectfully Submitted,

Blanche Brown, Pro Se

July 23, 2021

